OIG Audit Report

Compliance with Standards Governing Combined DNA Index System Activities at the Oklahoma City Police Department DNA Laboratory, Oklahoma City, Oklahoma

Audit Report GR-80-07-011


September 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Oklahoma City Police Department Laboratory (Laboratory).1 The Federal Bureau of Investigation (FBI) began the CODIS Program as a pilot project in 1990. The DNA Identification Act of 1994 (Act) formalized the FBI’s authority to establish a national DNA index for law enforcement purposes.2 The Act authorized the FBI to establish an index of DNA identification records of persons convicted of crimes and analyses of DNA samples recovered from crime scenes. The Act further specified that the indices include only DNA information that is based on analyses performed in accordance with quality assurance standards issued by the FBI.
The FBI implemented CODIS as a distributed database with three hierarchical levels that enables federal, state, and local crime laboratories to compare DNA profiles electronically. The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS Program to compare DNA profiles on a national level. NDIS became operational in 1998 and is managed by the FBI as the nation’s DNA database containing DNA profiles uploaded by participating states. DNA profiles originate at the local level, flow upward to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime or if crimes can be linked to each other. Thus, a laboratory’s profiles have to be uploaded to NDIS before the profiles benefit the system as a whole.
 The FBI provides CODIS software free-of-charge to any state or local law enforcement laboratory performing DNA analysis. Before a laboratory is allowed to participate at the national level, a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory. The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize NDIS.3
 The objective of the audit was to determine if the Laboratory was in compliance with standards governing CODIS activities. Specifically, we performed testing to determine if the: (1) Laboratory was in compliance with the NDIS participation requirements; (2) Laboratory was in compliance with the quality assurance standards issued by the FBI; and (3) Laboratory’s DNA profiles in CODIS databases were complete, accurate, and allowable.
We determined that the Laboratory was in compliance with the standards governing CODIS activities with some exceptions. Specifically, we noted the following.

 NDIS server backup tapes were not secured in a locked space as required by the NDIS security requirements. The Laboratory kept the backup tapes in a box next to the NDIS server and did not store a copy of the backup tapes off-site. We recommended that the backup tapes be stored in an office with limited access that is locked at night, preferably off-site. Laboratory officials agreed and are now storing the NDIS backup tapes in a locked office and make a copy of these tapes and store a copy in a vault in the property room. The property room is in a building about a block away from the Laboratory.
 The Laboratory uploaded two forensic profiles into the State DNA Index System (SDIS), and the profiles were subsequently uploaded into NDIS, but the profiles were unallowable for NDIS. One of the profiles was taken directly from the suspect’s clothing in a homicide case. Another profile was unallowable because the specimen was taken from the suspect’s place of residence. All of the profiles were removed from NDIS during our audit.

The results of our audit are discussed in the Findings section of the report. Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II of the report.
We discussed the results of our audit with Laboratory officials and have included their comments in the report as applicable. 



Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life. Approximately 99.9 percent of human DNA is the same for all people. The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
Pub. L. No. 103-322 (1994)
These standards were appended to the MOU as Appendix C - NDIS Procedure Manual. This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to NDIS. For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures. 








Return to OIG Home Page